Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                   Reporting OIG: Department of State - OIG
               Month Ending Date: 07/31/2011

                                                                Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau         Recovery Act TAFS        Award Type       US Indicator      Total Obligations     Total Gross       Direct or        Ordering TAFS
No.                                                                                                                      Outlays       Reimbursable
      Department of State - OIG    (19-0530 2009 \          Contracts and        Y - US              $27,070            $27,070           Direct               N/A
                                   2010) State - OIG -    Orders (including
 1                                 Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and        Y - US             $137,618           $129,409           Direct               N/A
                                   2010) State - OIG -    Orders (including
 2                                 Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \          Contracts and        Y - US              $17,129            $17,129           Direct               N/A
                                   2010) State - OIG -    Orders (including
 3                                 Recovery Act             modifications)
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $94,502            $94,502           Direct               N/A
                                   2010) State - OIG -    Orders (including
 4                                 Recovery Act           modifications)
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US             $118,799            $62,877           Direct               N/A
                                   2010) State - OIG -    Orders (including
 5                                 Recovery Act           modifications)
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $95,137            $54,949           Direct               N/A
                                   2010) State - OIG -    Orders (including
 6                                 Recovery Act           modifications)
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US             $164,159            $81,772           Direct               N/A
                                   2010) State - OIG -    Orders (including
 7                                 Recovery Act           modifications)
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $88,574            $71,754           Direct               N/A
                                   2010) State - OIG -    Orders (including
                                   Recovery Act           modifications)
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $72,249            $46,520           Direct               N/A
                                   2010) State - OIG -    Orders (including
                                   Recovery Act           modifications)
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US             $132,326            $66,799           Direct               N/A
                                   2010) State - OIG -    Orders (including
                                   Recovery Act           modifications)
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $95,137            $49,322           Direct               N/A
                                   2010) State - OIG -    Orders (including
                                   Recovery Act           modifications)
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US             $167,602           $164,528           Direct               N/A
                                   2010) State - OIG -    Orders (including
                                   Recovery Act           modifications)
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US             $495,331           $444,827           Direct               N/A
                                   2010) State - OIG -    Orders (including
                                   Recovery Act           modifications)
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $16,724            $16,724           Direct               N/A
                                   2010) State - OIG -    Orders (including
                                   Recovery Act           modifications)
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $17,601            $17,601           Direct               N/A
                                   2010) State - OIG -    Orders (including
                                   Recovery Act           modifications)
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US                $73                $73             Direct               N/A
                                   2010) State - OIG -    Orders (including
                                   Recovery Act           modifications)
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $20,536            $20,536           Direct               N/A
                                   2010) State - OIG -    Orders (including
                                   Recovery Act           modifications)
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $11,706            $11,706           Direct               N/A
                                   2010) State - OIG -    Orders (including
 8                                 Recovery Act           modifications)

                                                                              Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau           FY 2009 Non-         Total FY 2009     Total FY 2009   FY 2010 Non-Recovery    Total FY 2010    Total FY 2010   FY 2011 Non-Recovery    Total FY 2011   Total FY 2011
No.                                  Recovery Act TAFS       Obligations      Gross Outlays         Act TAFS           Obligations     Gross Outlays         Act TAFS           Obligations    Gross Outlays
      Department of State - OIG    (19-0529 2009) State            $59,536           $59,536 (19-0529 2010) State -         $105,056         $105,056 (19-0529 2011) State -         $82,852         $82,852
 1                                 - OIG                                                     OIG                                                      OIG
 2
 3
Monthly Update Report Data (sheet 2 of 5) Version 5.0a
    Reporting OIG: Department of State - OIG
Month Ending Date: 7/31/2011


                                                              Fiscal Year 2009
                           Monetary Results -Investigations            Monetary Results - Audits, Inspections, Reviews*
                             Recoveries (FY 09):                            Questioned Costs (FY 09):
                    Forfeitures/Seizures (FY 09):                          Unsupported Costs (FY 09):
                                                                      Recommendations for Better Use
                      Estimated Savings (FY 09):
                                                                                   of Funds (FY 09):



                                                              Fiscal Year 2010
                           Monetary Results -Investigations            Monetary Results - Audits, Inspections, Reviews*
                             Recoveries (FY 10):                            Questioned Costs (FY 10):
                    Forfeitures/Seizures (FY 10):                          Unsupported Costs (FY 10):
                                                                      Recommendations for Better Use
                      Estimated Savings (FY 10):
                                                                                   of Funds (FY 10):

                                                              Fiscal Year 2011
                           Monetary Results -Investigations            Monetary Results - Audits, Inspections, Reviews*
                             Recoveries (FY 11):                            Questioned Costs (FY 11):
                    Forfeitures/Seizures (FY 11):                          Unsupported Costs (FY 11):
                                                                      Recommendations for Better Use
                      Estimated Savings (FY 11):
                                                                                   of Funds (FY 11):

                                                       Cumulative Since 2/17/2009
                           Monetary Results -Investigations            Monetary Results - Audits, Inspections, Reviews*

                       Recoveries (cumulative):      $0.00             Questioned Costs (cumulative):      $0.00
                            Forfeitures/Seizures
                                                     $0.00            Unsupported Costs (cumulative):      $0.00
                                   (cumulative):
                              Estimated Savings                       Recommendations for Better Use
                                                     $0.00                                                 $0.00
                                   (cumulative):                              of Funds (cumulative):
Monthly Update Report Data (sheet 3 of 5) Version 5.0a
        Reporting OIG: Department of State - OIG
    Month Ending Date: 7/31/2011

                            FTE Working on Recovery
                                                                                                                                                Testimonies:
      Fiscal Year             2009             2010                2011              Cumulative
       Newly Hired FTE
                              0.00             0.00                 0.00                   0.00                                         Provided (monthly):        0
           (cumulative):

FTE Funded by Recovery
                              0.08             3.52                 2.39                   5.99                                       Provided (cumulative):       0
 Act Funds (cumulative):

    FTE Not Funded by
    Recovery Act Funds        0.50             0.65                 0.50                   1.65
         (cumulative):

              Complaints                              Whistleblower Reprisal Allegations                   Investigations           Audits / Inspections / Evaluations /         Training / Outreach
             Monthly Data                                       Monthly Data                               Monthly Data                        Monthly Data                         Monthly Data
                                                                                                                                                                                 Training Sessions
              Received:        0                                      Received:             0        Opened (this month):     0       Initiated (this month):      0                                   0
                                                                                                                                                                                        Provided:
                                                                                                   Active (as of the end of         In Process (as of the end
                                                                      Accepted:             0                                 0                                   13          Individuals Trained:     0
                                                                                                               the month):                    of the month):
                                                                                                                                            Completed Final
                                                                                                                                                                                Hours of Training
                                                                                                   Closed without Action:     0             Published Work         2                                   0
                                                                                                                                                                                       Provided:
                                                                                                                                                    Products:
                                                                                                                                             Priority Interim
                                                                                                                                                                               Outreach Sessions
                                                                                                    Prosecution Declined:     0             Published Work         0                                   0
                                                                                                                                                                                     Conducted:
                                                                                                                                                    Products:

                                                                                                  Referred for Alternative                Unpublished Work
                                                                                                                              0                                    0
                                                                                                               Resolution:                       Products*:

                                                                                                              Convictions,
                                                                                                       Settlements, Pleas,    0                 QCRs Issued:       0
                                                                                                               Judgments:

   Cumulative Data Since 2/17/2009                    Cumulative Data Since 2/17/2009             Cumulative Data Since 2/17/2009   Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                                          Completed Final
                                                                                                                                                                                 Training Sessions
              Received:        3                                      Received:             1      Closed without Action:     0           Published Work       13                                      2
                                                                                                                                                                                        Provided:
                                                                                                                                                 Products:
                                                                                                                                           Priority Interim
                                                                      Accepted:             0       Prosecution Declined:     0           Published Work        0             Individuals Trained:     35
                                                                                                                                                 Products:

                                                                                                  Referred for Alternative                Unpublished Work                      Hours of Training
                                                                                                                              0                                    1                                   55
                                                                                                               Resolution:                       Products*:                            Provided:

                                                                                                              Convictions,
                                                                                                                                                                               Outreach Sessions
                                                                                                       Settlements, Pleas,    0                 QCRs Issued:       0                                   5
                                                                                                                                                                                     Conducted:
                                                                                                               Judgments:
                                                                                                        Cumulative Total:     0           Cumulative Total:       14
Monthly Update Report Data (sheet 4 of 5) Version 5.0a
      Reporting OIG: Department of State - OIG
  Month Ending Date: 07/31/2011

       No.                        OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1            Two audit reports pertaining to sub-recipient compliance with ARRA requirements were issued in final:
                     * Audit of International Boundary and Water Commission Construction Contract With Lakeshore Engineering Services,
         2
                     Inc., Using Funds Provided by the American Recovery and Reinvestment Act (AUD/CG-11-20)
                     * Audit of International Boundary and Water Commission Construction Contract With Milestone Excavation, Inc., Using
         3
                     Funds Provided by the American Recovery and Reinvestment Act (AUD/CG-11-18)
         4           Continued review and revision of draft reports of audits conducted by an IPAs on various ARRA-funded projects
         5
         6
         7
         8
         9
        10

       No.                                OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1            Issue final reports on audits of IT-related programs funded under ARRA
                     Issue draft and final reports on several of eight IPA-conducted audits of State Department projects funded with ARRA
         2
                     funds, and continue oversight of IPA-conducted activities
         3
         4
         5
         6
         7
         8
         9
        10
Monthly Update Report Data (sheet 5 of 5) Version 5.0a
  Reporting OIG: Department of State - OIG
   Month Ending
                 07/31/2011
           Date:

                                                                      TRAINING ACTIVITIES
                                                                                                                                           Hours of
                                                                                     Training                   Length of                  Training
                                                 Target                                              Date of                 Number of                   Cost of
     No.               Type of Training                        Title of Training   Location (City,              Training                  Provided
                                                Audience                                             Training               Participants                 Training
                                                                                       State)                    (hours)                   (length x
                                                                                                                                         participants)
      1                                                                                                                                              0
      2                                                                                                                                              0
      3                                                                                                                                              0
      4                                                                                                                                              0
      5                                                                                                                                              0
      6                                                                                                                                              0
      7                                                                                                                                              0
      8                                                                                                                                              0
      9                                                                                                                                              0
      10                                                                                                                                             0
      11                                                                                                                                             0
      12                                                                                                                                             0
      13                                                                                                                                             0
      14                                                                                                                                             0
      15                                                                                                                                             0
                                                                                                                 TOTAL                 0             0

                                             OUTREACH ACTIVITIES
                                                Number of
                                              Organizations                          Outreach
                    Organization to which                     Description of                          Date of
     No.                                      Represented at                       Location (City,
                     Outreach Provided                          Outreach                             Outreach
                                                Outreach                               State)
                                                 Session
       1
       2
       3
       4
       5
